Before the Committee on Appropriations
Subcommittee on Transportation, Housing and Urban Development,
  and Related Agencies
United States House of Representatives



  For Release on Delivery
  Expected at               Top Management
                            Challenges Facing the
  10:00 a.m. EDT
  Thursday
  March 29, 2012
  CC-2012-017
                            Department of
                            Transportation


                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

Thank you for inviting me here today to discuss the Department of Transportation’s
(DOT) top management challenges for fiscal year 2012. We report annually on these
challenges, as Congress and the Office of Management and Budget (OMB) require.
Our November 2011 report 1 addressed both short- and long-term actions (see exhibit)
that DOT should take to ensure transportation safety—DOT’s top priority—and
maximize investments in transportation. The Department’s fiscal year 2013 budget
requests over $74 billion for a wide range of programs and initiatives, and we
continue to support the Department’s efforts through audits and investigations that
identify opportunities for program effectiveness and efficiencies and to minimize
fraud, waste, and abuse.

My comments today will summarize the Department’s top management challenges
along three cross-cutting areas: (1) enhancing aviation, surface, and pipeline safety;
(2) ensuring effective stewardship of the Department’s resources; and (3) effectively
implementing transportation infrastructure programs. I will also report on DOT’s
progress in addressing some of these challenges and conclude with what remains to be
done.

SUMMARY
Over the past 2 years, DOT has undertaken several initiatives to help ensure the safety
of our Nation’s airspace system, highways, railways, bridges, transit systems, and
pipelines. In fiscal year 2011, the Federal Aviation Administration (FAA)
implemented a system designed to track incidents involving aircraft that breach flight
separation standards and to evaluate the risks of these operational errors. FAA has
also issued updated regulations on pilot fatigue. The Federal Motor Carrier Safety
Administration (FMCSA) issued new regulations to keep unsafe commercial drivers
off our roads, while the Federal Highway Administration (FHWA) launched a new
bridge oversight initiative to improve States’ bridge inspection and maintenance
programs. To improve pipeline safety, DOT issued a “Call to Action,” challenging the
pipeline industry and key regulatory agencies to increase efforts to mitigate pipeline
safety risks. Despite these advancements, the Department and its Operating
Administrations will need to take a number of actions, many based on
recommendations we made, to minimize transportation safety risks.

At the same time, the Department must provide effective stewardship of its financial
and information technology resources. DOT must strategically plan and oversee its
contracts and adequately prepare the acquisition workforce to ensure projects achieve

1
    OIG Report Number PT-2012-006, “Top Management Challenges for Fiscal Year 2012, Department of Transportation,”
    November 15, 2011. OIG reports and testimonies are available on our website: www.oig.dot.gov.

                                                                                                                1
mission results. Budget constraints and problems with existing projects are forcing the
Department to rethink its investments and priorities in important yet costly programs,
such as the Next Generation Air Transportation System (NextGen). While NextGen
has made important advancements, we noted a number of improvements that are
needed, particularly in the management of its contracts. The Department must also
ensure that its more than 400 information systems, including air traffic data systems,
are secure from unauthorized access and cyber threats.

Finally, the Department must continue to work to ensure the effective implementation
of highway, transit, and passenger rail infrastructure programs—including large-scale
projects supported by the American Recovery and Reinvestment Act (ARRA). As
ARRA funds are expended, the Department may have less Federal funding available
to meet growing transportation demands, including addressing the Nation’s aging
surface infrastructure. The Department will need to closely oversee the completion of
ARRA projects to mitigate the risk of fraud, waste, and abuse; apply lessons learned
from ARRA; put in place clear goals for the high-speed rail program; and leverage
limited Federal transportation resources using innovative credit and financing
programs.

ENHANCING AVIATION, SURFACE, AND PIPELINE
SAFETY
In 2011, DOT undertook several safety initiatives. These include announcing the
update of regulations dealing with pilot fatigue, issuing new regulations to keep
unsafe commercial drivers off our roads, launching new bridge safety efforts, and
initiating a pipeline safety Call to Action. At the same time, Congress debated the
merits of enhancing the Department’s role in transit safety. By sustaining focus on
these and other important initiatives, DOT can better position itself to ensure the
safety of our Nation’s airspace system, highways, railways, bridges, transit systems,
and pipelines for fiscal year 2012 and beyond.

Ensuring Effective Oversight on Key Initiatives That Can Improve
Aviation Safety
The United States continues to operate the world’s safest air transportation system.
However, our audit and investigation work and recent incidents underscore the need
for FAA to take additional actions to improve safety.

A top priority for FAA is to accurately count and identify trends that contribute to
operational errors—events where controllers do not maintain safe separation between
aircraft. While FAA statistics indicate that operational errors increased by more than
50 percent, from 1,234 in fiscal year 2009 to 1,887 in fiscal year 2010, it is unclear
whether this reported increase is due to more operational errors being committed,

                                                                                     2
improved reporting, or both. According to FAA, the Air Traffic Safety Action
Program (ATSAP) has encouraged controllers to report operational errors. However,
not all operational errors reported in ATSAP are counted in FAA’s reported numbers.
Almost one-quarter of the increase can be attributed to the revocation of a separation
waiver at the Southern California Terminal Radar Approach Control. 2 Improved radar
and voice tools for identifying errors may also have contributed to the increase. In
fiscal year 2011, FAA implemented the System Risk Event Rate tool, which is
designed to track and evaluate systemwide risk when aircraft fly closer together than
separation standards permit. Implementing systems and processes that capture
accurate and complete data is critical for FAA to determine the true magnitude of
operational errors and to assess their potential safety impacts, identify their root
causes, and effectively address and mitigate them.

Addressing pilot training is also critical to strengthening aviation safety. In January
2009, FAA issued a Notice of Proposed Rulemaking for revised crew training that
requires use of flight simulators and incorporates special hazard practice training for
pilots. However, FAA received extensive industry comments, which primarily
opposed the rule’s prescriptive training hours rather than basing pilot training on skills
most needed to safely perform flight operations. As a result, FAA issued a second
proposed rule in May 2011, which requires more thorough ground and flight training
for pilots on how to recognize and recover from stalls, as well as remedial training for
pilots with performance deficiencies. FAA has not yet issued a final rule on crew
training requirements, which was congressionally mandated by October 1, 2011.

In January 2012, FAA updated its flight and duty time regulations for Part 121 air
carriers 3 in an effort to better ensure that pilots are rested when they fly. Unlike the
old regulations—which included different rest requirements for domestic,
international, and unscheduled flights—the new regulations establish one set of rules
that are based on scientific factors. However, the regulations do not require air
carriers to identify pilots who commute or address issues related to pilot
commuting—significant factors that may contribute to fatigue. While FAA considered
mandating that pilots arrive in time to receive a pre-flight rest period in the new rule,
it stated that the requirement would be difficult to enforce and would not guarantee
responsible commuting.

FAA’s oversight of aircraft repair stations also remains a concern. Given air carriers’
continued reliance on repair stations, it is imperative that FAA provide more rigorous
oversight of this industry. According to FAA, there are nearly 4,800 FAA-certificated
repair stations worldwide that perform maintenance for U.S. registered aircraft. In
response to weaknesses we identified, FAA implemented a new risk-based system to
2
    The waiver allowed aircraft landing simultaneously to be closer than normally allowed. Air Traffic Safety Oversight
    Service revoked the waiver because it considered it unsafe, and subsequently, reclassified aircraft landings that occurred
    under the waiver as operational errors.
3
    14 CFR Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations

                                                                                                                            3
target surveillance efforts to facilities with the greatest risk. Furthermore, our ongoing
review indicates that the system is not applied consistently—some inspectors do not
use the risk assessment process at all, while other inspectors use it to varying degrees.
Our criminal investigations continue to identify significant improprieties committed
by repair station personnel, a number of which resulted in the repair or sale of aircraft
parts that were certified as airworthy when they were not.

FAA’s oversight of aircraft manufacturers has also not been fully effective—due to
weaknesses in FAA’s Organization Designation Authorization (ODA) program and
Risk-Based Resource Targeting (RBRT) system. FAA created ODA in 2005 to
standardize its oversight of organizations that supplement FAA’s safety inspector and
engineer workforce. However, FAA has not adequately trained engineers on their new
enforcement responsibilities under ODA, and some FAA certification offices have not
effectively tracked or addressed poorly performing ODA personnel. Additionally, a
lack of detailed, objective data and technical difficulties has limited RBRT’s
usefulness in measuring risk and directing FAA engineers’ oversight efforts to high-
risk projects. FAA is working to improve ODA and RBRT policy, training, and tools
to ensure that ODA organizations comply with safety requirements and that the
Agency targets its limited engineering resources to the highest risk projects.

To effectively oversee a dynamic aviation industry, it is critical that FAA places its
approximate 4,300 safety inspectors where they are most needed. A 2006 National
Research Council study conducted at the direction of Congress concluded that FAA’s
methodology for allocating aviation safety inspector resources was ineffective and
recommended that FAA develop a new approach. In response, FAA completed a new
staffing model in October 2009. While FAA used the model to support an increase in
the number of inspectors for its fiscal year 2012 budget request, it did not fully rely on
the number projected by the model. For fiscal year 2013, FAA did not request
additional inspectors. FAA is working to further refine the model so that it more
effectively identifies the number of inspectors needed and where they should be
placed to address the greatest safety risks.

FAA also needs to advance air carrier collaboration and assess the potential safety
impacts of code share agreements—where one air carrier sells and issues tickets for
flights operated by another carrier. While code share agreements can reduce major
carrier costs and enhance customer service, FAA faces challenges in overseeing these
agreements. A key concern is that since FAA does not review any domestic code
share agreements, the Agency is not aware of whether the performance incentives or
penalties in these agreements could result in unintended safety vulnerabilities. FAA’s
2009 Call to Action plan for airline safety encourages mainline and regional carriers
to collaborate on code share safety programs and mentoring. However, FAA has not
issued guidance to operators involved in these arrangements to encourage safety



                                                                                        4
collaboration. Further, the Department will need to pay closer attention to compliance
with code share disclosure requirements.

Finally, continued FAA attention is needed to ensure safety improvements contained
in the Airline Safety and FAA Extension Act of 2010 are implemented in a timely and
effective manner. The Act contains measures intended to improve safety and address
longstanding pilot concerns, such as fatigue, training, and professionalism. In addition
to mandating completion dates for pilot training and fatigue rules, the law requires
mentoring programs and a more focused FAA approach to increase air carriers’
adoption of voluntary safety programs. FAA is also required to establish and maintain
a pilot database—including performance records from the Agency and air carriers,
and additional records from the National Driver Register—that air carriers must
access and review during the pilot hiring process.

Enhancing the Department's Oversight of Surface Safety
Surface transportation safety has improved in recent years—especially as it relates to
motor vehicles. From 2005 to 2009, fatalities and injuries related to motor vehicle
crashes declined by 22 percent and 18 percent, respectively. Large truck and bus
fatalities dropped by 29 percent between 2007 and 2009. To maintain these positive
trends, the Department must work with its State and local partners to tackle persistent
challenges, build on key initiatives, and address longstanding concerns with motor
carrier, vehicle, bridge, and transit safety.

FMCSA is responsible for overseeing over 525,000 active interstate freight and
passenger carriers. An important challenge it faces is identifying reincarnated
carriers—those who attempt to evade enforcement by obtaining authority to operate
as a different entity. FMCSA has taken action to address this issue but needs to refine
its existing screening process for detecting reincarnated carriers, and use a risk-based
approach to better target its limited resources before expanding the vetting process
from passenger and household goods carriers to all new motor carrier applicants.

Another key safety focus for FMCSA is to follow through on its commitment to
strengthen the Commercial Driver’s License (CDL) program and prevent fraudulently
issued CDLs. Our work has shown that FMCSA will be challenged to ensure that
States swiftly and effectively implement new regulations for tightening controls over
CDL testing that FMCSA issued in 2011. Ongoing testing problems are evident with
the recent sentencing of 10 people in Pennsylvania for bypassing CDL regulations and
providing false CDLs to more than 400 drivers.

Vehicle defects, particularly unintended acceleration, have brought significant public,
media, and congressional attention to the National Highway Traffic Safety
Administration’s (NHTSA) oversight of vehicle safety. While NHTSA’s Office of
Defects Investigation (ODI) is well respected internationally, improvements are

                                                                                      5
needed in ODI’s processes for identifying and addressing potential safety defects,
assessing staffing needs, staying abreast of new automobile technologies, and sharing
and coordinating information with foreign countries. NHTSA responded positively to
recommendations we made in 2011 and is taking action to strengthen its processes,
workforce, and training program.

The safety of the Nation’s bridges is another key focus area. According to the FHWA,
about one-fourth of the Nation’s more than 600,000 bridges are deficient. 4 However,
FHWA has lacked quality inspection data and a risk-based oversight approach to
prioritize bridge safety risks. In 2011, FHWA launched an initiative to improve
FHWA’s oversight of how well States meet National Bridge Inspection Standards and
maintain their bridges. If successfully implemented, this initiative should enable
FHWA to target higher priority bridge problems using objective data and risk-based
metrics, and better monitor States’ performance.

Since 2009, rail transit incidents, including the fatal crash here in Washington, D.C.,
have raised concerns about safety oversight of the Nation’s transit systems. The
Department’s budget requests additional funding to support enhanced Federal rail
transit oversight; and the Senate’s reauthorization bill includes an expansion of the
Department’s role in this area. We have identified actions the Federal Transit
Administration (FTA) could take to enhance transit safety, such as maximizing the
usefulness of current safety data. We have also pointed out challenges FTA would
likely face in developing and implementing enhanced rail transit safety oversight,
such as establishing national standards across the Nation’s diverse transit systems.
DOT is facing a similar challenge in implementing new railroad safety regulations
under the Rail Safety Improvement Act of 2008.

Ensuring Effective Oversight of Pipeline Safety
The Nation’s aging oil and gas pipeline infrastructure is vulnerable to ruptures caused
by corrosion and other pipe defects. For example, in 2010, a 54-year old gas pipeline
in San Bruno, California, exploded, killing eight people and destroying 38 homes. In
the same year, a leaking pipeline spilled nearly a million gallons of crude oil into a
tributary of the Kalamazoo River in southwest Michigan. The Pipeline and Hazardous
Material Safety Administration (PHMSA) faces several challenges in effectively
overseeing pipeline operators and ensuring States carry out their pipeline safety
responsibilities.

First, PHMSA must ensure that operators of hazardous liquid, gas transmission, and
gas distribution pipelines have sound integrity management (IM) programs for
conducting inspections, identifying and repairing defects, and continually evaluating
risks to pipeline integrity. The National Transportation Safety Board’s (NTSB)
investigation of the San Bruno incident raised a number of concerns regarding
4
    Deficient bridges generally refers to bridges that are either structurally deficient or functionally obsolete.

                                                                                                                     6
PHMSA’s oversight of IM programs and recommended that PHMSA expand the use
of IM metrics; validate operator IM data; ensure pipeline operators incorporate leak,
failure, and incident data into their risk models; and establish performance goals for
operators. NTSB’s report also cited the California Public Utilities Commission for
failing to detect inadequacies in the Pacific Gas and Electric Company’s IM program.
Addressing these weaknesses is particularly critical given the recent enactment of
Federal pipeline safety rules 5 and the corresponding increases in State oversight
responsibilities in high-risk areas. Under the most recent initiative, States will be
responsible for overseeing IM programs for almost 1,300 operators of local gas
distribution systems—where the highest rates of pipeline-related fatalities and injuries
occur. While PHMSA has several efforts under way to enhance its hazardous liquid
IM inspection program, such as focusing on the quality and number of field visits, the
Agency faces challenges in accomplishing these improvements while meeting its
other inspection activities, including pipeline construction and control room
management.

Second, PHMSA must ensure State partners effectively execute their regulatory and
enforcement responsibilities. State pipeline safety regulators currently oversee about
90 percent of the 2.5 million miles of our Nation’s pipeline infrastructure. In 2010,
PHMSA distributed more than $30 million in Federal grant funds to encourage States
to take on more responsibility for overseeing pipeline safety and to improve
performance. Despite these investments, the San Bruno explosion and other recent
accidents call into question the effectiveness of these partnerships.

In response to several serious pipeline accidents in 2010 and 2011, Secretary LaHood
issued a “Call to Action” for improving pipeline safety. In doing so, the Secretary and
the PHMSA Administrator challenged the pipeline industry and key regulatory
agencies to increase efforts to identify and repair or replace high-risk pipelines. Of
particular concern are pipelines constructed with cast iron, bare steel, and other
material that may have a higher risk of leaking or exploding. However, achieving the
Secretary’s Call to Action will not be easy, largely because PHMSA lacks the
authority to require operators to accelerate the repair or replacement of high-risk
pipelines; and PHMSA relies heavily on its State pipeline safety partners to oversee
much of this work. Given its limited authority and the sizable resources needed to
achieve the Call to Action, PHMSA will be significantly challenged to ensure
corrective steps are taken and that high-risk pipelines no longer pose a threat.




5
    PHMSA issued two final rules in December 2009 on Gas Distribution Pipeline Integrity Management and Control Room
    Management, placing additional requirements on pipeline operators.




                                                                                                                  7
ENSURING EFFECTIVE STEWARDSHIP OF THE
DEPARTMENT’S RESOURCES
The Department has a fundamental responsibility to be an effective steward of its
financial and information technology resources, especially at a time when it must
confront shrinking budgets and increasing cyber security threats. It faces challenges to
strategically plan and oversee acquisitions and adequately prepare its acquisition
workforce to ensure projects achieve mission results. Budget constraints and problems
with existing projects are forcing the Department to rethink its investments and
priorities in programs such as NextGen, a multi-billion, satellite-based air traffic
management system. The Department must also ensure that its more than 400
information systems, including air traffic data systems, are secure from inappropriate
access and cyber threats.

Strategically Managing the Department’s Acquisitions
In fiscal year 2011, the Department obligated approximately $5.8 billion on contracts
for goods and services to build and support a transportation system that meets vital
national interests. Our audits continue to find weaknesses in how DOT and its
Operating Administrations plan, administer, and oversee its contracts and manage its
acquisition workforce. These deficiencies challenge DOT’s ability to effectively
manage its contracts and identify opportunities to improve program performance and
save millions in taxpayer dollars.

A lack of planning related to DOT’s selection of contract type and resources needed
to manage contracts has created cost risks. In 2010, we estimated that DOT paid over
$140 million in fees on cost-plus award fee contracts without properly justifying their
cost-effectiveness. While these contracts can provide incentives to spur innovation
and reduce costs, they require greater agency effort to document contractor
performance and mitigate cost risks to the Government. Because FAA is responsible
for a significant portion of the Department’s contract dollars, it is especially critical
for FAA to improve its acquisitions. In 2011, we reported that FAA’s sole-source,
noncompetitive contract actions—which accounted for over half a billion dollars in
fiscal year 2009 obligations—provided little assurance that prices were consistently
fair and reasonable for the contracts we reviewed. Further, a lack of fundamental
planning to properly design and execute contracts can significantly impact the
Department’s bottom line—as was the case with FAA’s Air Traffic Controller
Optimum Training Solution (ATCOTS) Program contract. In 2010, we reported that
the contract’s costs and fees exceeded baseline estimates by about $46 million
(27 percent) for the first 2 years of the contract due to weaknesses in contract design
and planning. We recently announced a follow-up audit on FAA’s progress to
improve management of its ATCOTS contract.



                                                                                       8
An effective acquisition workforce is also critical to ensure the Department’s
thousands of complex contracts provide maximum value and benefit. While DOT’s
Acquisition Workforce Strategic Human Capital Plan sets strategies and goals to
increase the capability of the acquisition workforce, DOT has faced challenges in
strengthening its acquisition workforce, which has contributed to weaknesses in
contract management and administration. For example, according to DOT’s
Acquisition Workforce Strategic Human Capital Plan, about 63 percent of its
contracting employees will be eligible for retirement by 2018. Almost 40 percent of
FAA’s acquisition workforce will be eligible to retire by the end of 2016. We reported
in 2011 that gaps in FAA’s acquisition staff hiring and development contributed to
poor contract administration on critical FAA programs. To better ensure DOT and its
Operating Administrations make wise contracting decisions, the Department issued a
DOT Cost-Plus-Award-Fee Contracting Guide in July 2011 and requires acquisition
personnel involved with these contracts to be trained. FAA also implemented training
on the use of price analysis. However, more training is needed to better develop the
acquisition workforce in the current climate of budgetary hiring constraints and the
high rate of retirement facing the Department.

A lack of effective data management systems and surveillance exacerbates these
weaknesses. Unreliable acquisition data hinder the Department’s ability to
strategically manage its contracts, meet reporting and transparency requirements, and
ensure the billions of dollars it spends on contracting each year are used efficiently
and effectively. In 2011, we reported that roughly one-third of the Office of the
Secretary of Transportation’s (OST) fiscal year 2008 and fiscal year 2009 data in the
Governmentwide procurement information system were inaccurate. In some cases,
DOT Operating Administrations cannot accurately account for all of their active
contracts. While DOT’s recent data quality reports to OMB have indicated an
improvement, the Department needs to remain vigilant to implement its efforts and
controls for improving data accuracy. We will continue to monitor its efforts and
validate the data. Weaknesses in contract oversight and surveillance also limit the
Department’s ability to achieve successful acquisition outcomes. For example, in
2010, we reported that in the first year of its $859 million Air Traffic Controller
Optimum Training Solution contract, FAA authorized payment for 11 invoices
totaling $45 million without verifying whether the services billed were actually
provided.

More vigilant oversight is also needed to detect and prevent grant and procurement
fraud, which currently comprises about 50 percent of active OIG investigations. In
fiscal year 2011, our investigations of grant and procurement fraud resulted in
41 indictments, 29 convictions, and approximately $280 million in recoveries. DOT’s
more than $40 billion in ARRA funds awarded to grant recipients heightens the
importance of vigilant oversight. However, deficiencies we found in DOT’s
Suspension and Debarment Program (S&D) limit its ability to safeguard against

                                                                                    9
fraudulent actors obtaining DOT contracts or funds. While DOT and FAA have
initiated several actions in response to recommendations we made in 2010—such as
revising their S&D policies to require timely S&D actions—sustained focus and
demonstrated progress in this area are still needed. Until DOT fully implements an
efficient and effective S&D Program, it will continue to risk awarding contracts and
grants to improper parties.

Finally, to ensure effective stewardship of its contract dollars, DOT needs to place its
acquisitions work in a long-term strategic context, elevate the importance of its
acquisition function, and institutionalize procurement reforms across the Department.
In 2011, we reported that the Office of the Senior Procurement Executive’s strategic
plan does not link its goals to DOT’s strategic plan, and until recently DOT’s Senior
Procurement Executive did not directly report to the Chief Acquisition Officer as
envisioned by major acquisition reform legislation. Organizational weaknesses in
DOT Operating Administrations’ acquisition functions similarly hinder their ability to
serve a strategic role in carrying out agency missions.

Controlling Costs While Advancing NextGen
To control the Department’s costs, DOT will need to set realistic plans, budgets, and
expectations for NextGen—a complex effort requiring investments from both the
Government and the airline industry. A constrained budget and problems with
existing projects are forcing FAA to rethink its capital investments and NextGen
priorities (see figure 1). Currently, FAA plans to spend almost $5 billion on all
NextGen programs between fiscal years 2012 and 2016—a significant investment but
billions less than FAA projected a year ago. This adjustment creates significant
challenges in sustaining existing projects and facilities while introducing new
NextGen-related capabilities.




                                                                                     10
Figure 1. FAA Capital Funding for Fiscal Years 2010 Through 2017,
Dollars in Millions


                  Remaining Facilities and Equipment          NextGen Funding
     $3,500

     $3,000

     $2,500       $788
                                                                    $974        $1,042   $1,113
                              $812        $863         $955                                          $1,431

     $2,000

     $1,500

     $1,000      $2,148
                             $1,919      $1,868        $1,895      $1,929       $1,915   $1,901
                                                                                                     $1,649

       $500

         $0
                 2010        2011        2012       2013        2014        2015        2016        2017
                (Actual)    (Actual)   (Enacted) (Requested) (Estimated) (Estimated) (Estimated) (Estimated)
                                                          Fiscal Year
Source: FAA Budget Documents


FAA’s 2011 NextGen implementation plan provides a vision for NextGen from 2015
to 2018 and broadly outlines linkages between FAA and stakeholder investments.
However, FAA has yet to make critical decisions that affect near- and long-term
goals.

For the near-term, FAA is taking action to address recommendations from a
Government-industry task force on NextGen. However, most efforts are still in the
planning, study, or design phases, including FAA’s 7-year initiative for reducing
delays at congested airports in 21 major metropolitan areas. 6 FAA has completed
studies at seven locations and has begun design work at six, but it has not established
a mechanism to integrate its efforts with other important initiatives, such as improving
airport surface operations. Enhancing capacity at congested airports also depends on
the timely deployment of more efficient flight procedures. However, as we noted in
December 2010, FAA’s flight procedures have mostly been overlays of existing
routes.

6
    Subsequently, FAA reduced the number of metroplex projects from 21 to 13 by combining some and dropping others
    because of ongoing airspace and performance-based navigation initiatives. The sites dropped were:        New
    York/Philadelphia, Minneapolis-St. Paul, Seattle, and Las Vegas Valley.

                                                                                                               11
Between fiscal years 2012 and 2016, FAA plans to spend $2.4 billion on NextGen’s
six transformational programs—including a new satellite-based surveillance system
and a new information sharing system—which have complex interdependencies and
integration issues with automated systems that controllers rely on to manage traffic
and FAA communications networks. However, FAA has not yet developed an
integrated master schedule for implementing these programs or established total
program costs, schedules, or performance baselines. In addition, FAA’s approach of
baselining smaller segments of larger programs in an effort to reduce risks in the
short-term provides no clear end-state for programs—leaving decisionmakers in
Congress and the Department without the information needed to assess NextGen
progress, establish priorities, and make necessary tradeoffs between programs.
Although FAA recognizes the need for an integrated master schedule to manage
NextGen, it remains incomplete.

FAA’s long-term goals for NextGen depend on the successful implementation of the
En Route Automation Modernization (ERAM) program—a $2.1 billion system for
processing flight data. ERAM will replace all existing hardware and software at
FAA’s facilities that manage high-altitude traffic. Without ERAM, the key benefits of
several other programs, such as new satellite-based surveillance systems and data
communications for controllers and pilots, will not be possible. However, software-
related problems—including incorrect flight data display—have pushed schedules
well beyond original completion dates and increased costs by hundreds of millions of
dollars. FAA formally rebaselined the program in June 2011 and now plans to
complete ERAM in 2014—a slip of 4 years. FAA estimates that delays with ERAM
will translate to an additional $330 million to complete deployment. If problems
persist, total program cost growth could be as much as $500 million with potential
delays stretching to 2016. ERAM delays have required FAA to maintain aging
systems longer, reprogram funds from other projects to cover the total cost overruns,
and retrain controllers and maintenance technicians who must operate and maintain
two different systems.

Improving the Department’s Cyber Security
A sound information security program is critical to protect the confidentiality,
availability, and integrity of information systems—as well as the significant
investments in these systems. DOT’s 400-plus information systems—nearly two-
thirds of which belong to FAA—represent an annual investment of approximately
$3 billion in resources. Last year, we reported that DOT’s information security
program did not meet key OMB and Federal Information Security Management Act
requirements to establish an information security program—one that would protect
Agency information and systems from increasingly aggressive and technically
proficient cybercriminals. As a result, DOT declared its information security
deficiencies a material weakness in its annual assurance statement required by the
Federal Managers’ Financial Integrity Act. While DOT has made some progress

                                                                                  12
toward correcting these weaknesses, security deficiencies remain in key control areas,
such as contingency planning, software configuration, system controls testing, and
network user accounts.

These deficiencies have serious implications for personally identifiable information
(PII) and NextGen. To prevent unauthorized access to PII, OMB requires agencies to
reduce the volume of and restrict access to information collected and maintained, as
well as implement other security controls, such as encryption. In fiscal year 2011, the
Department provided plans for reducing PII and the use of Social Security numbers,
and is working to establish required privacy protections by 2013. However, until these
measures are implemented, the Department’s systems remain vulnerable to
exploitation. For example, our ongoing audit of the United States Merchant Marine
Academy’s (USMMA) network identified and exploited a critical vulnerability
providing full access to the network, including databases containing sensitive
midshipmen information. While USMMA corrected this identified vulnerability,
numerous internal administrative and technical control deficiencies that we identified
continue to place USMMA data at risk of unauthorized access.

The new technologies that NextGen relies on to achieve its goals—such as satellite-
based surveillance technologies for tracking aircraft—could introduce significant
cyber security risks. While FAA expects that using commercial products will be less
expensive than developing new, FAA-owned software, the Internet Protocol-based
commercial products, and Web applications that NextGen relies on are inherently
more vulnerable to security risks than FAA’s proprietary software. In addition, FAA
may have little control over security challenges that could arise in the Automatic
Dependent Surveillance-Broadcast (ADS-B) and other systems owned and operated
by NextGen contractors. 7 We have already identified weaknesses in FAA’s Air
Traffic Control System, including an information disclosure vulnerability, insufficient
updating of system software, unsupported operating systems, improper network
configurations, and communication system vulnerabilities. As FAA develops
NextGen, it must continue to protect its current air traffic control and related systems,
located at hundreds of operational facilities.

The Department’s Office of the Chief Information Officer (OCIO) could do more to
guide and oversee Operating Administrations in building and sustaining strong
information security practices. In 2011, OCIO revamped its information security
policy for all Operating Administrations except OST. However, OCIO has yet to
finalize Departmentwide procedural guidance, improve its quality assurance reviews
of modal cyber security efforts, and establish an effective means for conducting
timely assessments of the Department’s cyber security. Until OCIO can better guide
and oversee Operating Administrations’ information security, the Department cannot


7
    NextGen’s ADS-B system is the first operational air traffic control system to be owned and operated by a contractor.

                                                                                                                           13
verify that its policy is properly implemented or deploy automated tools to quickly
and continuously monitor its cyber security efforts.

Despite its $48 million investment and years of effort, the Department does not have a
blueprint for modernizing its information systems in an efficient or secure manner.
The purpose of this blueprint, known as enterprise architecture (EA), is to save costs,
reduce duplication of systems, identify technology needed to conduct missions, and
maximize the benefits of security spending. The Department has been relying on the
Operating Administrations to develop their own EAs, but has not provided the
necessary policies, procedures, guidance or oversight to direct this effort. In response
to an OMB request, the OCIO recently began planning for the development of a
Departmentwide EA. However, until these efforts are complete, the Department
cannot verify that security needs are efficiently addressed or identify duplicate or
unnecessary systems that may exist or occur.

EFFECTIVELY IMPLEMENTING INFRASTRUCTURE
PROGRAMS
ARRA provided over $48 billion to support existing highway and transit
infrastructure programs, and infused an unprecedented amount of capital into new
passenger rail programs. As ARRA funds are expended, the Department may have
less Federal funding available to meet growing transportation demands, including
addressing the Nation’s aging surface infrastructure. To address these infrastructure
challenges, the Department will need to closely oversee the completion of ARRA
projects, apply lessons learned from ARRA to improve project oversight, put in place
clear goals for the high-speed rail program, and leverage limited Federal
transportation resources using innovative credit and financing programs.

Ensuring Effective Oversight of ARRA Projects and Applying
Related Lessons Learned To Improve DOT’s Infrastructure
Programs
Since ARRA’s enactment in 2009, FHWA and FTA have taken significant actions to
oversee ARRA projects but remain challenged to ensure remaining funds are spent
appropriately. Lessons learned from ARRA can maximize the Department’s efforts to
improve key oversight mechanisms and keep projects within budget; on schedule; and
free from fraud, waste, and abuse.

As of March 2012, FHWA reported that almost 79 percent of its ARRA-funded
projects were completed with 88 percent of funds expended. To oversee ARRA
expenditures, FHWA created national review teams, which identified a number of
management weaknesses. However, the Agency must follow through to address
problems identified by these teams and our audit work—especially those that extend

                                                                                     14
beyond ARRA. First, FHWA must follow through on promised actions to enhance the
States’ local public agency (LPA) program, which refers to projects managed by
cities, counties, and other local entities. Persistent risks with the program include
insufficient State oversight of LPAs, noncompliance with Federal labor requirements,
and improper processing of contract changes. In addition, FHWA faces a significant
challenge in ensuring that States effectively implement the new value engineering
regulations that it recently finalized—5 years after Congress enacted additional value
engineering requirements. Opportunities to improve project performance, cost, and
quality may be lost for ARRA and non-ARRA projects if FHWA fails to ensure States
conduct value engineering studies.

While FTA received a smaller amount of ARRA funds than FHWA, it directed a
significant portion of these funds to a number of major projects that require sustained
management attention to mitigate further cost and schedule risks. For example,
$423 million in ARRA funds were provided to the Fulton Street project in New York,
which had experienced significant cost increases and years of delays. FTA increased
its project oversight and risk assessments, and implemented robust recovery plans to
prevent additional cost increases and delays. However, years of complex work
remain, and FTA will need to sustain a high level of oversight to ensure prudent and
timely expenditure of ARRA funds.

Vigilant oversight of the Transportation Investment Generating Economic Recovery
(TIGER) Discretionary Grant Program is also needed to ensure effective execution of
these grants, including those funded by ARRA. In February 2010, OST awarded
$1.5 billion in ARRA funding for TIGER grants to 51 recipients across the Nation.
The program relies heavily on FHWA, FTA, Federal Railroad Administration (FRA),
and the Maritime Administration (MARAD) to ensure recipients meet ARRA
requirements. While FHWA and FTA have longstanding procedures in place to
administer grant programs, FRA and MARAD are still implementing standard
oversight practices for grants. Accurate grantee reports, comprehensive risk
assessments, and sufficient performance measures are critical for tracking and
monitoring individual projects and evaluating the program's impact. Subsequent
appropriations 8 have doubled the program’s funding, substantially increasing the
challenges facing OST and its Operating Administrations in effectively overseeing
TIGER projects.

ARRA funding and significant ongoing construction activity emphasize the need for
DOT and our office to continue to aggressively pursue counter-fraud efforts. We have
worked with DOT to deter fraud schemes through ongoing outreach and targeted
assessments of projects with fraud risk indicators, as well as investigated criminal and

8
    In 2010, Congress provided $528 million for 42 capital projects and 33 planning projects. In 2011, it provided
    $527 million for 46 capital projects. Finally, in 2012, it provided $500 million for capital investments in
    surface transportation infrastructure.

                                                                                                              15
civil complaints. As of February 29, 2012, we have 66 open ARRA investigations—
47 of which the Department of Justice is reviewing for potential prosecution (see
table 1).

Table 1. Open Investigations into Allegations of ARRA Fraud, by
Operating Administration, as of February 29, 2012

Allegation                                           FHWA         FAA        FTA       FRA     MARAD        Total
False Statements, Claims, Certifications                 15          3          2         1           1        22
Disadvantaged Business Enterprise Fraud                  16          4          5         0           0        25
Anti-Trust Violations, Bid-Rigging, Collusion              4         1          0         0           0         5
Embezzlement                                               0         0          1         0           0         1
Prevailing Wage Violations                                 8         0          1         0           0         9
ARRA Whistleblower                                         0         1          0         0           0         1
             *
Corruption                                                 1         1          0         1           0         3
Total                                                    44         10          9         2           1        66
Source: OIG
*
  This type of investigation involves allegedly dishonest or fraudulent conduct by individuals who are responsible
  for overseeing ARRA-funded projects.

These investigations illustrate the need for DOT to take action to deter fraudulent
activity on all DOT-funded projects. Our office has provided fraud awareness and
prevention presentations to over 20,000 DOT officials, State departments of
transportation officials, local transit authority staff, and aviation authorities. However,
Operating Administrations’ role in outreach is also critical to ensuring recipients of
Federal grants and contracts have meaningful ethics programs and sound internal
controls.

Defining Clear Goals To Guide FRA in Its Transformation
The 2008 Passenger Rail Investment and Improvement Act (PRIIA) dramatically
realigned and expanded FRA’s roles and responsibilities. In addition, ARRA infused
an unprecedented amount of new capital into new passenger rail programs and
drastically accelerated timeframes for implementation. FRA has been challenged to
establish specific goals to guide its transformation and measure progress—largely
because it has yet to complete a long-range National Rail Plan, as required by PRIIA.

A complete rail plan—one that is consistent with approved State plans—would
provide a blueprint for an efficient national system of passenger and freight rail
corridors. While FRA issued a Preliminary National Rail Plan and Progress Report—
in October 2009 and September 2010, respectively—neither defines specific goals to
guide States’ intercity passenger rail planning and encourage private sector support of
State programs. At the same time, the roles various stakeholders will play in intercity
passenger rail remain unclear. FRA recognizes that successful implementation of

                                                                                                              16
high-speed intercity passenger rail requires participation from a number of industry
stakeholders—from freight railroads to equipment manufacturers. However, it has not
specified what stakeholders’ roles will be. Rail industry stakeholders have expressed
optimism about increased public investment in intercity passenger rail, but without a
complete National Rail Plan there is uncertainty about how effectively private
stakeholders can participate in the intercity passenger rail market.

According to FRA staff, the lack of a complete National Rail Plan has also delayed
FRA’s efforts to develop the PRIIA-mandated schedule for achieving specific,
measurable performance goals that include estimated funds and staff resources needed
to accomplish each goal. PRIIA requires FRA to submit the schedule to Congress
with the President’s budget each fiscal year, starting with fiscal year 2010, along with
an assessment of progress towards achieving the performance goals. However, FRA
has not submitted this schedule or progress assessments to Congress. Completing the
schedule could provide the basis for FRA to prioritize its ongoing and outstanding
responsibilities, such as completing policies and procedures related to high-speed rail,
help allocate resources to accomplish the work planned, and report on progress.

Using Department Credit Programs To Leverage Limited Federal
Transportation Infrastructure Resources
The National Surface Transportation Infrastructure Financing Commission estimates
that nearly $100 billion in Federal investments is needed annually to preserve and
enhance our Nation’s surface transportation infrastructure. 9 The Highway Trust Fund
(HTF) falls well short of this mark, typically devoting less than $45 billion per year to
roadways and transit systems. Moreover, in recent years, HTF receipts have fallen
significantly short of HTF outlays. To strengthen the Nation’s ability to meet its
increasing surface transportation infrastructure needs, the Department must maximize
the effectiveness of its credit programs and expand the use of innovative financing
techniques such as public private partnerships (PPP), where appropriate.

To date, only a small percentage of authorized funds for the Department’s Railroad
Rehabilitation and Infrastructure Financing (RRIF), and the Tax-Exempt Private
Activity Bond (PAB) credit programs have been used. Since RRIF was established in
1998, FRA has made loans to railroads totaling approximately $1.6 billion—roughly
4.5 percent of RRIF’s total authorization of $35 billion. Application costs, which
include the credit risk premium (CRP), 10 and lengthy application review periods
appear to contribute to RRIF’s underutilization. Similarly, the Department’s PAB
program, established in 2005, has issued only $2.2 billion in bonds to date, or about
15 percent of PAB’s total authorization of $15 billion. An additional $4.8 billion has
9
     “Paying Our Way: A New Framework for Transportation Finance, Report of the National Surface Transportation
     Infrastructure Financing Commission,” February 26, 2009.
10
     CRP equals the net present value of expected losses due to default, delinquency, or prepayment. The CRP is based
     primarily on two factors: the financial viability of the applicant and the value of the collateral provided to secure the
     debt.

                                                                                                                          17
been approved, but not yet issued. Even though the opportunity for low-cost, tax-
exempt financing under the PAB credit program is intended to increase private sector
investment in transportation infrastructure projects, demand for PAB financing
remains relatively low for surface transportation projects. As with RRIF, the upfront
costs associated with issuing PABs may be contributing to the program’s
underutilization.

In addition, MARAD’s Title XI Federal Ship Financing Program (Title XI) currently
has over $27 million in available appropriations that can be leveraged as much as
twentyfold to guarantee more than $500 million in loans. However, Title XI has
experienced a number of defaults in recent years, costing the Department roughly
$795 million in lost loan guarantees. After our 2003 and 2004 reports 11 outlined
concerns about potential increases in defaults due to program administration
weaknesses, Congress cut off program funding from fiscal year 2003 through fiscal
year 2007. In December 2010, following up on MARAD’s implementation of our
recommendations arising from prior audits, we continued to raise concerns regarding
MARAD’s oversight and monitoring of the Title XI program. Improved monitoring
by MARAD could result in expanding the use of the program and further leverage
Federal support of transportation infrastructure projects.

In contrast, the Transportation Infrastructure Finance and Innovation Act (TIFIA)
credit program is oversubscribed. TIFIA provides a platform that combines PPPs with
a number of other Federal and State funding sources in a manner that makes PPPs
more financially attractive to private investors. Unlike RRIF, the Department can use
TIFIA funds to pay 100 percent of CRP—the most significant component of the
application cost—associated with TIFIA financing. To date, TIFIA has provided
credit assistance of $8.7 billion for 25 highway and transit projects with a total cost of
$33 billion. However, 10 years into the program, total credit requests began exceeding
annual CRP appropriations. For fiscal year 2012, TIFIA has a backlog of
26 applications for projects totaling $36 billion. Recognizing the significant demand
for TIFIA, recent legislative proposals in both the House and Senate version of the
next surface transportation authorization included an increase in TIFIA’s annual CRP
appropriation to $1 billion. To further expand the breadth of the program, the
Department is considering allowing applicants to pay the CRP (similar to RRIF), as
regulations permit, and thereby alleviate reliance on appropriations. However, the
need for upfront capital could deter certain applicants. Increasing TIFIA’s program
capacity could also strain the administrative resources to monitor and manage the
program.




11
     OIG Report Number CR-2003, “Title XI Loan Guarantee Program,” March 27, 2003, and OIG Report Number CR-
     2004-095, “Title XI Loan Guarantee Program,” September 28, 2004.

                                                                                                         18
CONCLUSION
Ensuring the Nation’s airspace, highway, rail and transit, and pipeline systems are
safe, while maintaining a viable transportation infrastructure and protecting taxpayer
dollars from fraud, waste, and abuse is a daunting mission. The Department’s many
recent and ongoing initiatives clearly demonstrate its commitment to this mission;
however, a number of ongoing and emerging management challenges remain. Our
individual and cross-cutting work on these challenges helps the Department and
Congress identify opportunities for program improvements and cost savings, which is
particularly critical in our current budget environment. We appreciate the
Subcommittee’s support of our office. Without it, we would not have the resources
needed to conduct comprehensive oversight of DOT’s programs and activities. We
work diligently to prioritize and focus OIG’s finite resources on areas of high-risk
within the Department and of particular interest to Congress. We will continue to
work with this Subcommittee on prioritizing the competing demands for our resources
and we remain committed to meeting your legislative and oversight priorities.

This concludes my statement. I will be happy to answer any questions you or
Members of the Subcommittee may have.




                                                                                   19
EXHIBIT. DOT’S FISCAL YEAR 2012 TOP MANAGEMENT
CHALLENGES
We identified the following nine challenges in our November 15, 2011, report, “Top
Management Challenges for Fiscal Year 2012, Department of Transportation.”

• Enhancing the Department’s Oversight of Highway, Bridge, and Transit Safety

• Ensuring Effective Oversight on Key Initiatives That Can Improve Aviation
  Safety

• Ensuring Effective Oversight of Hazardous Liquid and Natural Gas Pipeline
  Safety

• Ensuring Effective Oversight of ARRA Projects and Applying Related Lessons
  Learned To Improve DOT’s Infrastructure Programs

• Managing the Next Generation Air Transportation System Advancement While
  Controlling Costs

• Managing DOT Acquisitions in a More Strategic Manner To Maximize Limited
  Resources and Achieve Better Mission Results

• Improving the Department’s Cyber Security

• Defining Clear Goals To Guide the Federal Railroad Administration in Its
  Transformation

• Utilizing Department Credit Programs To Leverage Limited Federal
  Transportation Infrastructure Resources




                                                                                 20
